OIG Audit Report GR-30-98-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Bristol, Virginia Police Department
 
GR-30-98-006
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Bristol, Virginia Police Department (BVPD). The BVPD
received grants of: $62,165 to hire 1 additional sworn police officer under the Funding
Accelerated for Smaller Towns (FAST) program; $187,627 to hire 3 officers under the
Universal Hiring Program (UHP); $11,403 to purchase equipment and technology under the
Making Officer Redeployment Effective (MORE) program of 1995; and $16,170 to hire 1
civilian under the MORE program of 1996. The purpose of the additional officers is to
enhance community policing efforts.
Due to the BVPD ' s failure to meet the terms and conditions of the grant, we are
questioning $103,278 in funds received under the FAST/UHP grants. In addition, we are
recommending that $111,804 be withheld as funds to better use. Further, the BVPD did not
develop a redeployment tracking plan for the MORE 1995 and 1996 grants; therefore, we are
questioning $11,403 in funds received and recommending that $16,170 be withheld as funds
to better use.

Specifically, BVPD violated the following grant conditions:



The BVPD assigned officers to the FAST and UHP grants without backfilling vacancies. In
      addition, officers assigned to the UHP grant were not newly hired on or after the award
      start date.




The BVPD made an input error when requesting reimbursement on the FAST/UHP grant that
      resulted in an excess reimbursement of $1,437.




The BVPD did not document redeployment of officers to community policing as required by
      the MORE 1995 grant.




Costs were incurred for the MORE 1996 grant, but no reimbursements were received by the
      grantee. Since the BVPD did not develop a redeployment tracking plan, we are recommending
      that all funds be withheld as funds to better use.




Overtime, and salary and fringe benefits in excess of entry level pay were charged to
      the FAST and UHP grants, and training costs were charged to the MORE 1995 grant in
      violation of grant conditions.




The BVPD could not document the source of local matching funds for the COPS grants.




The BVPD had no formal plan to retain officers hired under the FAST and UHP grants upon
      expiration of the grants.




Community leaders contended that funds provided under the FAST and UHP grants enhanced
      the BVPDs community policing efforts. Because the BVPD did not document redeployment
      required by the MORE grants, we were unable to determine if community policing efforts
      were enhanced by receipt of those funds.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in Appendix II.
#####